!

. Vi trry' R /?>■ n y n
■■ ’UR’-’R *- -'P R
b;

■■■■;■!

:.: IM.'.-J. .;■

U - lJ

m

ri

!;R-<■< ;u?
H
I ; 1

i.M

R l.i Rjp RiRg

!

IN THE

b

<r

SUPREME COURT OF THE UNITED STATES f

L 0h

Saprsroa Co-j.ri, US.
FILED

ds&SU?5

MOV 0 h 2020
OFFICE OF THE CLERK

Kpri fin /Vi ^

— PETITIONER

(Your Name)
vs.
f\/l URirf/f

ftTUdbitiL — RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

t?lTU£4~
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

IAjy

/

(Your Name)

wall htdcmd
(Address)

a

r\

m

(City, State, Zip'Code)

1^1 n
(Phone Number)

]

I

i

QUESTION PRESENTED
1. Did the Appeals Court err though McCoy might have had a liberty interest in avoiding
transfer to a mental hospital for involuntary psychiatric treatment,see Vitex, 445 US. at 48788, that interest does not extend to his inter-prison transfer to a wig for the physical and
mentally ill, a move which did not contravene state law and did not carry the same significant
and stigmatizing consequences as transfer to a mental hospital for involuntary psychiatric
treatment
2. Did the Appeal Court err because McCoy wished to proceed pro se, we are unable to
consider issues argued in the Amicus brief that have riot been preserved or advanced by
McCoy and in his pro se appellate brief, that mean the court will not address any possible
equal protection claim or issues related to discovery ruling, issues that were advanced solely
by Amicus curiae.
3. DID the Appeal Court err McCoy Offered no evidence contradicting the jail logS account
of the Incident

usa2010@fedex.com
From:
Sent:
To:
Subject:

Rhylonda Rhodes < rhylondar@icloud.com>
Wednesday, November 4, 2020 3:31 PM
usa2010@fedex.com
[EXTERNAL] List of Parties Air related cases

Caution! This email originated outside of FedEx. Please do not open attachments or click links from an unknown
or suspicious origin.

List of Parties Air related cases
John Buncich terminated:4/23/2015
Mr, Mark Kalusinki terminated 4/23/2015
Me Gentry terminated 4/23/2015
Mrs Brown terminated 4/23/2015
Mrs calvery terminated 4/23/2015
Ms Gonzales terminated 4/23/2015
Ms Kristen terminated 4/23/2015
Mr Michael terminated 4/23/2015
MrAtthenten
Mr Roberts terminated 4/23/2015
Nieces Gore
Karen Kennedy terminated 4/23/2015
Douge Thomas terminated 4/23/2015
Mr Eric terminated 4/23/2015
Ms Leto terminated 4/23/2015
Y Hogan
Ms Pierson
Joe Manchaca
Eric Boss terminated 4/23/2015
Mr Revess terminated 4/23/2015
Unknown male officer Transported him to medical separation 9/21/2012
Lake county jail terminated 4/23/2015
RELATED CASES
Table of authorities
Cases
Binning El v Long 482 f 3D 923 924-25(7th cir 2007
Antonelliv Shehan, 81 f 3D 1422 1432(7th cir 1995
Sandin v Conner,515US.472,484(1995)

l

Vitex v Jones 445. US. at 480(1980)
Youngberg v Romeo 457 US 307(1982
Yock wo v Hopkins,118 US 356(1986
Duncan v Duckworth, 664 f 2d 655(8th cir 1981
Snider intern. Corp v Town of Forest Height.MD. 739 f 3D 140,145(4th cir 2014
Farnham, 394 f 3D 469,477(7th cir 2005
Bell, 441 US 520, 535 n 16(1979
Shelby City jail inmates v Westlake 798 2d, 1085,1087(7th cir 1986)
Jackson v Duckworth 955 f 2 d 2122 (7th cir 1992
Statutes
28 U.S.C. § 1257........................................
Constitutional Provisions
United States Constitution, Amendment V
Amendment VI...........................................

1
......................................... 1, 6 United States Constitution,
5 United States Constitution, Amendment XIV................

Sent from my iPhone

2

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

M For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is
[ ] reported at
^
ivf\J
or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

A__to

The opinion of the United States district court appears at Appendix _j
the pejifion and is
[Q/reported at f mSeA W-cV; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
court
The opinion of the _
to
the
petition
and
is
appears at Appendix
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

JURISDICTION

[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
^ <^C>d^D__, and a copy of the
Appeals on the following date:
order denying rehearing appears at Appendix_
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date) on
(date)
to and including______
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ 3 For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix---------[ ] A timely petition for rehearing was thereafter denied on the following date:
____________________, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date) in
(date) on
to and including —_
Application No. —A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

9

X
usa2010@fedex.com
From:
Sent:
To:
Subject:

Rhylonda Rhodes < rhylondar@icloud.com>
Wednesday, November 4, 2020 3:27 PM
usa2010@fedex.com
[EXTERNAL]

Constitutional and statutory provisions involved
1.1 Article 14 of the Constitution of India reads as under: All persons born or naturalized in the United States and
subject to the jurisdiction thereof, are citizens of the United States and of the State wherein they reside. No State shall
make or enforce any law which shall abridge the privileges or immunities of citizens of the United States; nor shall any
State deprive any person of life, liberty, or property, without due process of law; nor deny to any person within its
jurisdiction the equal protection

Sent from my iPhone

l

)

usa2010@fedex.com
From:

Sent:
To:
Subject:

Rhylonda Rhodes <rhylondar@icloud.com>
Wednesday, November 4, 2020 3:25 PM
usa2010@fedex.com
[EXTERNAL] STATEMENT OF CASE

Caution! This email originated outside of FedEx. Please do not open attachments or click links from an unknown
or suspicious origin.

STATEMENT OF CASE

In Sandin The protections of the Due Process Clause, both substantive and procedural, may be triggered when the State,
by the affirmative acts of its agents, subjects an involuntarily confined individual to deprivations of liberty which are not
among those generally authorized by his confinement. See, e.g., Whitley v. Albers, supra, 475 U.S., at 326-327,106 S.Ct.,
at 1087-1088 (shooting inmate); Youngberg v. Romeo, supra, 457 U.S., at 316,102 S.Ct., at 2458 (shackling involuntarily
committed mental patient); Hughes v. Rowe, 449 U.S. 5,11,101 S.Ct. 173,177, 66 LEd.2d 163 (1980) (removing mmate
from general prison population and confining him to administrative segregation); Vitek v. Jones, 445
'
100 S.Ct. 1254,1262-1264,63 L.Ed.2d 552 (1980) (transferring inmate to mental health facility ‘
'
In vitex- This court held Appellee, a convicted felon, was transferred from state prison to a mental hospital pursuant to a
Nebraska statute (§ 83-180(1)) which provides that, if a designated physician or psychologist finds that a prisoner
"suffers from a mental disease or defect" that "cannot be given proper treatment" in prison, the Director of Correctional
Services may transfer the prisoner to a mental hospital. In an action challenging the constitutionality of § 83-180(1 on
procedural due process grounds, the District Court declared the statute unconstitutional as applied to appeHee, holding
that transferring him to the mental hospital without adequate notice and opportunity for a hearing deprived him o
liberty without due process of law contrary to the Fourteenth Amendment, and that such transfers must be
accompanied by adequate notice, an adversary hearing before an independent decisionmaker, a written statement by
the factfinder of the evidence relied on and the reasons for the decision, and the availability of appointed counsel for
indigent prisoners. The court permanently enjoined the State from transferring appellee (who meanwhile had been
transferred back to prison) to the mental hospital without following the prescribed procedures. Subsequently, appellee
was paroled on condition that he accept mental treatment, but he violated that parole and was returned to prison.
Relying on appellee's history of mental illness and the State's representation that he was a serious threat to his own and
others' safety* the District Court held that the parole and revocation thereof did not render the case moot, because
appellee was still subject to being transferred to the mental hospital.
Held: The judgment is affirmed as modified. Pp. 445 U. S. 486-497; 445 U. S. 497-500.

THE TRANSFER OF MCCOY TO THE MENTAL HEALTH FLOOR:

The Last few times McCoy have been housed at the lake county jail tha classification sgt have forced him to be housed
on the mental health floor were he was infear for his health and safety I'd de 56
Oh September 20, 2012.McCoy was incarcerated and booked into the lake county jai!.SA201. At the time, McCoy woi.e
Nail polish on his fingernails .Id. During the booking process he was screened for medical issues and cleared. SA201 •
02-SA157 A mental health official reported That McCoy" feels safe in (general population)'^ is suitable to go into
gen' era I population without threat to his sexuality. SA171:seeSA201 .Therefore.McCoy was assigned to general
population housing.SA201-02:SA157,

When McCoy was in the general populated cell with those who were also done with the booking intake process and
waiting to be confined to a lake county assigned housing section , McCoy then seen Niecey Gore who use to Force him
to be house on the mental health floor Even though he had been cleared by medical and mental health, McCoy felt that
The Wardon was there to have the classification department sgt pull him out the grounp of inmates a place him back on
the mental health floor. The classification sgt then came, when the classification department sgt called McCoy name he
then had to walk pass Niecey Gore,
While being transferred to general population housing unit. McCoy was singled out by Sergeant Jose Menchaca.SA76.
Menchaca noticed McCoys fingernail polish and act like he did not want to touch McCoy. SA 77.Menchaca Sent other
detainees to their housing sections with another officer. I'd. Menchaca then separately placed McCoy m general
After an houror two, And without notice or cause, McCoy was removed to a medical segregation cell. SA157;SA77-78.
McCoy's cell was effectively solitary confinement cell and for inmates with a contagion Diease and are mental defect
When McCoy was Placed on the mental floor Guards placed him In an unclean cell in the cell their was hair on the bed
Podium, a yellow stained Piece of toilet paper stuck to the floor on the side of the bed then seen to be the last inmate
bodily fluids ,hair and soap cum in the sink from the last inmate shaving and Urion on toilet set,
Gaurds and medical staff denied him a pen to write the classification department to be moved,
After being placed in medical segregation .McCoy was giving an Anniversary hearing for every one placed on the mental
health floor see SA162.SA271.McCoy told the medical staff that he has been cleared to be with the general population
and believe that he had been placed in medical segregation due to discrimination based on his sexual orientation
SA16:see also A5.Medical staff clear McCoy a second time is suitable for general population.Yet did not remove him
despite he was misclassed either,
Guards denied McCoy a grievance McCoy called the Guard a bitchThe guard then retaliated against McCoy by placing
him with the more mentally III inmates on the mental health floor then he usually went to range with, refused to take
McCoy to appointment with mental health staff Shut off his phone call,
Next lie To a state inspector during a state inspection on the mental health floor to keep him on the medical floor,by
telling him McCoy was placed on the mental health floor by mental health staff for mental health reasons after the
noticed their Was not a sticker on McCoy cell door to address was he placed on the floor by medical or mental
inspector
health staff,
Next Shut off his water in cell that McCoy was using Flushing his toilet Repeatedly to block out a inmate on the mental
health floor telling inmates LG and medical staff Forced McCoy to be housed on medical floor because he had Aids and
miss with little kids, Guards feed him
suecide meals and placed him on 30 min ranges when he surprise to get a full hour
SA205;SA162,
Next McCoy went to court ,when he came back Guards placed him in a suicide cell,were there was fetus still Visabe on
the wall and Straight across from a inmate McCoy had been Arguing with,and had been telling the inmates LCJ, and
medical staff was froceing him to be housed on the medical floor because McCoy had aids a miss with little kids
A Guard then placed McCoy cleared by mental health on range with inmates placed on the floor by mental health staff

health and stabbed in the leg served times With a piece of aa broken broom handle, guards and medical staff
not taken for medical care until a day later, when a nurse came around and
responded to the incident, McCoy was
McCoy told the nurse that he was still Bleeding,
Guard open him mail marked legal not infront of him,
Guards failed to take him to court despite he had court

1.

Procedural History

McCoy who had been placed on mental health floor dispite his clearance by mental health brought c.vil rights action
against classification officer, warden,doctor during his anniversary hearing and the Sheriff because the classification sgt
placed him on the mental health floor dispite his and mental health Evaluator had determined this was unnecessary,
warden for retaliation for giving the classification department sgt the ok, the doctor performances anniversary hearing
because he did not remove him out of medical segregation Despite he was missed class either and the Sheriff For failure
to Train and supervise
McCoy sued gaurds, medical staff because he was placed in a in unclean cell on the mental floor and they did not give
him cleaning serplys
Sued A Guard because
floor

she denied him a pen to write the classification department to be moved of the mental health

Sued A Guard because they denied him a grievance to file to be move out the mental floor
Sued A Guard because she retaliated against him by shutting off his cell water, feeding him sucide meal and placing him
on 30 min range when he supposed to get a four hour and
Sued guards .medical staff who had received complaints that he was placed
. . _
,
on the mental health floor dispite his clearance by mental health staff, and he was being retaliated against by a gaur
by shutting off his water in cell, feeding him sucide mealsj and by placing him on 30min ranges and they did not protect
him from the mistreatment by the Gaurd
Sued mental health staff and Warden because they received complaints that he was placed on the mental health flow
dispite his clearance, A Guards were retaliating against him, by denying him a grievance, shut off water in ceH, feed him
suicide meals and thet the gaurd were now retaliating against him by placing him in a suicide cell and they did not
protect him from the mistreatment and or move him out the sucide cell
Sued guards because they-placed him on range with the inmates placed on the the floor by mental health staff with a
room
aswe^as Guardi and mldiTal staff who failed*) take him for medical care in which he was in a fight with another
inmate and stabbed server! times in the leg with a peace of a broken broom handle,
Sued guards because they open his mail marked legal not in front of him and
Sued guards because they
failed to take him for court

The

district court then held that McCoy was unhappy about nearly Aspect of treatment he received at Lake county jail

but the only to causes of action does he identify McCoy will
Seceeed in stateingo causes of actions is one is that Niecey Gore placed him on the Mental health floor despite h.s
mental health evaluator had Determine this was unnecessary and
second against Guards who failed to take him for medical care in which he was in a fight with another Inmates and stabs
Several times In the leg with a peace of a broken broom Handle officers responded to the incident and McCoy was not
taken to medical care until a day or two when a Nurse came around and he told her his leg was still bleeding
McCoy then filed a motion to reconsider the named lake county medical provider and staff because they did not move
him off the mental health floor dispute he was misclassed either I'd at De24

The district court then held McCoy motion to reconsider denied because In De Jesus Odom 578 578
Fed.Appx.698,600(7th cir.3014), the Seventh Circuit upheld a grant of summary judgment for defendants where the
defendants did not make any decisions or were not Personally involved in the placement decision leading to a Prisoner
administration Segregation
Second Plaintiff contentions to any public employee who knows or should know about a Ro must do something to fix it is
just an effort evade,By indirection, Monell's rule that pubic employees are Responsible for On but not for everyone else
s, section 1983 establishes a species of tort law liability, and one distinctive feature of this nations' tort law is that there
is no general duty to rescue.
McCoy then filed a motion to reconsider the medical staff because he also said medical state also failed to take him fo
medical care in which he was on a fight with another inmates and stabbed served times in the leg with a peace of a
broken broom handle
The district court then held that it read the complaint and determined that their was only two claims does it identify
states a cause of action one is that Nlecey Gore placed him on the mental health floor dispite his clearance and
second against guards" who failed to take him for medical care in which he was in a fight with another inmates and
stabbed in the leg served times with a peace of a broom handle

The District Court granted summary judgment for the Remaining Defendants
2. Direct appeal
McCoy asked this court if the rest of the defendants and claim the judge dismissed state a cause of action
And renewed his claims defendants violated his due process And equal protectionaccording to vitex v Jones
The Court of Appeals for the Seventh Circuit affirmed, 812 F.2d 298 (1987), holding that petitioners had not made out an
actionable § 1983 claim for two alternative reasons. First, the court held to Establish a due process violation,McCoy
needed to present evidence that the defendant deprive him of a liberty interest by imposing an atypical and significan
hardship on (him)in relation to the ordinary incidents of prison life "Sandin v Conner,SISUS472,^!^),taking
together the conditions and duration of his term in segregation, see Marion v Columbia core. I still, 559 f 3D 693 697
(7th cir 2009).Accepting McCoys Characterization that He lived in a dirty cell near physical and mentally III'nmates hjs
conditions were not so atypical and significantly harsh as to implicate a liberty interest: see eg, Hardaway v Meyerhoff,
734 F. 740 744 (7th cir 2013)(
Moreover, He was not segregated for only three months, which, given The circumstances of his confinement,It's
generally not long enough to trigger due process protections, see Marion, 559 f 3D at 6 9 7 - 97 n2(Characterzing up o
90 days And segregation as a relatively short period,Depending on the condition and imposed). Though McCoy may have
a liberty interest in avoiding transfer to a mental hospital for involuntary psychiatric treatment, see v, ex, 445 US at 487
•88 That interest does not extend to his intro prison transfer to a wing for the physical and mentally ill,a move which did
not contravene state law and did not carrothe same significant and stigmating consequences as transfer to a mental
hospital for involuntary psychiatric treatment
Mr McCoy filed a petition for re- hearing with the Seventh circuit appeals court, renewing his argument that defendants
acts violated his due process according to vitex v. Jones and or equal protection, and that he turned in evidence to
support his medical claims at
The Savanth Circuit denied the petition for rehearing, Justice: IIANA DIMOND ROVNER,MICHAEL B BRENNAN AMY J ST
it judges dissented from the order pointed out All members of the original panel vote to deny a petition for
EVE circu
rehearing August 5, 2020

usa2010@fedex.com
Rhylonda Rhodes <rhylondar@icloud.com>
Wednesday, November 4, 2020 3:28 PM
usa2010@fedex.com
[EXTERNAL] Reasons for granting the petition

From:
Sent:
To:

Subject:

Caution! This

email originated outside of FedEx. Please do not open attachments or click links from an unknown I
or suspicious origin.
I

Reasons for granting the petition
REASONS FOR GRANTING THE WRIT
n
. n
A. To avoid erroneous deprivations of a liberty protected by the Due process this Court should clarify the "initiation
standard under Sandin that applies when the affirmative acts of its agents, subjects an involuntarily confined individual
to deprivations of liberty which are not among those generally authorized by his confinement

A liberty interest
The purpose of the due process is generally not to Keep the government from doing certain things all together,But
rather to keep it from acting an Obituary and unfair Manor. When you have a liberty Interst protected by the due
process clausejail and prison officials must provide you with fair treatment.ln. 1995 This court, in Sandin v Conner,
limited the due process protections of Prisoners,holding that in -prison Restrictions deprive them of liberty within the
meeting of the due process clause Only If The restrictions impose atypical and significant hardship on inmate in relation
to the ordinary incidents of prison life

What is article in significant hardship ? 1 court has held that it is something significant worse than the most restrictive
conditions that prison officials, Exercising their administrative authority to ensure institutional safety and good
order,Routinely imposed on inmates serving similar sentences. For example officials at your prison routinely Place
Inmates in administrative segregation units for various reasons.To have a liberty interest you must be subject to
conditions significantly worse than conditions in the Prison

Due process clause were only required procedural protection in connection with a transfer of a convicted prisoner If
transfer Of a convicted prisoner Deprive the prisoner of a right That is independently protected by the Constitution,Or if
it imposes atypical and significant hardship ralative To ordinary incidence of prison Conditions Sandin v Conner 515 at
472 484 115s 2293(1995)And example of the first category the only example we know at this pointjls transfer to a
mental hospital,Which requires to process protection in the form of commitment hearing vitex v Jones 445 is 480 494-96
100s ct 1264(1980)And example of the second (again,The only one we know of)land the second is transfers to a high
security Supermax unit for potentially definiteOf time under extreme harsh and Restrictive Conditions Wilkins v Austen
545 at 208 223-24 125 s ct 354(2005)
Here, the court of Appeals accepted the district court finding that defendantlose Menchaca placed McCoy on the menta
health floor Despite his mental health evaluater had determined this was a necessary.,The court also did not disturb the

district courts finding that mr McCoy had been in General population at the time he was transfers to Administrative
segregation on the mental health floor, The court also conceded that officers trasfering McCoy to the mental health
floor despite his Mental health evaluate had determined this was unnecessary could qualify as a due process violation
.Nonetheless,the Seventh circuit Appeal court reasoned that the Record,However,Fails to demonstrate that defendants
violated McCoy due process rights,to Establish a due process violation,McCoy needed to present evidence that the
defendant deprive him of a liberty interest by imposing an atypical and significant hardship on (him)in relation to the
ordinary incidents of prison life "Sandin v Conner,515US472,484(1995),taking together the conditions and duration of
his term in segregation, see Marion v Columbia core. I still, 559 f 3D 693 697 (7th cir 2009).Accepting McCoys
Characterization that He lived in a dirty cell near physical and mentally I'll inmates, his conditions were not so atypical
and significantly harsh as to implicate a liberty interest: see eg, Hardaway v Meyerhoff, 734 F. 740 744 (7th cir 2013)(
Moreover, He was not segregated for only three months, which, given The circumstances of his confinement,It's
generally not long enough to trigger due process protections, see Marion, 559 f 3D at 6 9 7 - 97 n2(Characterzing up to
90 days In segregation as a relatively short period,Depending on the condition and imposed). Though McCoy may have a
liberty interest in avoiding transfer to a mental hospital for involuntary psychiatric treatment, see vitex, 445 US. at 487 88,That interest does not extend to his intro prison transfer to a wing for the physical and mentally ill,a move which did
not contravene state law and did not carrothe same significant and stigmating consequences as transfer to a mental
hospital for involuntary psychiatric treatment
The decision by the Court of Appeals is plainly incorrect, as it both contradicts the bright-line holding of Sandin and the
express purpose of the rule. The analytical starting point of Sandin is that given a volid conviction, The criminal
defendant has been Constitutionally deprived of his Liberty to the extent that the state may confine Him and subject
him to the rules of its prison system so long as the conditions of confinement do not otherwise Violate the
Constitution....Confinement in any of the state institution is within the normal limits or range of custody which the
*

conviction has authorize the state to impose
This case presents this Court with an opportunity to clarify the Sandin ’ "initiation" standard when the affirmative acts of
its agents, subjects an involuntarily confined individual to deprivations of liberty which are not among those generally
authorized by his confinement

the Seventh circuit Court of Appeals' published decision will work to undermine the carefully-crafted procedural
safeguards that this Court has spent the past 50 years Developing

REASONS FOR GRANTING THE WRIT
A.

Several of the Courts of Appeals have read this language as implying that once the State learns that a third party poses a
special danger to an identified victim, and indicates its willingness to protect the victim against that danger, a "special
relationship" arises between State and victim, giving rise to an affirmative duty, enforceable through the Due Process
Clause, to render adequate protection. See Estate of Bailey by Oare v. County of York, 768 F.2d 503, 510-511 (CA3 1985),
Jensen v. Conrad, 747 F.2d 185,190-194, and n. 11 (CA4 1984) (dicta), cert, denied, 470 U.S. 1052 (1985)); Balistreri v.
Pacifica Police Dept., 855 F.2d 1421,1425-1426 (CA9 1988). But see, in addition to the opinion of the Seventh Circuit
below, Estate of Gilmore v. Buckley, 787 F.2d 714, 720-723 (CAl), cert, denied, 479 U.S. 882 (1986); Harpole v. Arkansas

Dept, of Human Services, 820 F.2d 923, 926-927 (CA8 1987); Wideman v. Shallowford Community Hospital Inc., 826 F.2d
1030,1034-1037 (CA111987).
Here the district court Except McCoy statement McCoy was placed on the floor by gaurd, he complained about this to
guards and medical personal non who went against the plain and moved m

*fn5 To make out an Eighth Amendment claim based on the failure to provide adequate medical care, a prisoner must
show that the state defendants exhibited "deliberate indifference" to his "serious" medical needs; the mere negligent or
inadvertent failure to provide adequate care is not enough. Estelle v. Gamble, 429 U.S., at 105-106. In Whitley v. Albers,
475 U.S. 312 (1986), we suggested that a similar state of mind is required to make out a substantive due process claim in
the prison setting. Id., at 326-327.
fnfa The Eighth Amendment applies "only after the State has complied with the constitutional guarantees traditionally
associated with criminal prosecutions.... he State does not acquire the power to punish with which the Eighth
Amendment is concerned until after it has secured a formal adjudication of guilt in accordance with due process of law."
Ingraham v. Wright, 430 U.S. 651, 671-672, n. 40 (1977); see also Revere v. Massachusetts General Hospital, 463 U.S.
239, 244 (1983); Bell v. Wolfish, 441 U.S. 520, 535, n. 16 (1979).

Even in this situation, we have recognized that the State "has considerable discretion in determining the nature and
scope of its responsibilities." Youngberg v. Romeo, 457 U.S., at 317.

*fr$8 Of course, the protections of the Due Process Clause, both substantive and procedural, may be triggered when the
by the affirmative acts of its agents, subjects an involuntarily confined individual to deprivations of liberty which
State,
. not among those generally authorized by his confinement. See, e. g., Whitley v. Albers, supra, at 326-327 (shooting
are
inmate); Youngberg v. Romeo, supra, at 316 (shackling involuntarily committed mental patient); Hughes v. Rowe, 449
U.S. 5,11 (1980) (removing inmate from general prison population and confining him to administrative segregation),
Vitek v. Jones, 445 U.S. 480,491-494 (1980) (transferring inmate to mental health facility).
Here the court

Dddddddddxdddxxxxxxxxxxccccc

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date:

